TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Computer Security Incident Response
                   Center Is Effectively Performing Most of
                       Its Responsibilities, but Further
                          Improvements Are Needed



                                          March 12, 2012

                              Reference Number: 2012-20-019




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document..



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                HIGHLIGHTS


THE COMPUTER SECURITY INCIDENT                      the Treasury, as required. Finally, incident
RESPONSE CENTER IS EFFECTIVELY                      response policies, plans, and procedures are
PERFORMING MOST OF ITS                              either nonexistent or are inaccurate and
RESPONSIBILITIES, BUT FURTHER                       incomplete.
IMPROVEMENTS ARE NEEDED                             WHAT TIGTA RECOMMENDED
                                                    TIGTA recommended that the Assistant Chief
Highlights                                          Information Officer, Cybersecurity, direct the
                                                    CSIRC to 1) develop its Cybersecurity Data
Final Report issued on March 12, 2012               Warehouse capability to correlate and reconcile
                                                    active servers connected to the IRS network
Highlights of Reference Number: 2012-20-019         with servers monitored by the host-based
to the Internal Revenue Service Chief               intrusion detection system; 2) revise and expand
Technology Officer.                                 the Memorandum of Understanding with the
                                                    TIGTA Office of Investigations to ensure all
IMPACT ON TAXPAYERS                                 reportable and relevant security incidents are
                                                    shared with the CSIRC; 3) collaborate with the
The Computer Security Incident Response             TIGTA Office of Investigations to create
Center (CSIRC) is responsible for monitoring the    common identifiers to help the CSIRC reconcile
IRS network 24 hours a day year-round for           its incident tracking system with the TIGTA
cyberattacks and computer vulnerabilities and       Office of Investigations’ incident system;
for responding to various computer security         4) develop a standalone incident response
incidents such as the theft of a laptop computer.   policy or update the policy in the IRS’s Internal
Taxpayers are impacted when IRS network             Revenue Manual with current and complete
disruptions prevent the IRS from performing vital   information; 5) develop an incident response
taxpayer services such as processing tax            plan; and 6) develop, update, and formalize all
returns, issuing refunds, and answering taxpayer    critical standard operating procedures.
inquires.
                                                    The IRS agreed with the recommendations and
WHY TIGTA DID THE AUDIT                             corrective actions are planned or in process for
The overall objective of this review was to         five of the six recommendations. Although the
evaluate the effectiveness of the CSIRC at          IRS agreed with the recommendation to
preventing, detecting, reporting, and responding    correlate and reconcile active servers connected
to computer security incidents targeting IRS        to the IRS network with servers monitored by the
computers and data. TIGTA included this audit       host-based intrusion detection system, its
in its Fiscal Year 2011 Annual Audit Plan to help   proposed corrective actions do not address the
fulfill its statutory requirement to review the     recommendation. Specifically, the IRS did not
adequacy and security of IRS technology. This       commit to implementing the controls we
review addresses the major management               recommended.
challenge of Security for Taxpayer Data and
Employees.
WHAT TIGTA FOUND
The CSIRC is effectively performing most of its
responsibilities for preventing, detecting, and
responding to computer security incidents.
However, further improvements could be made.
The CSIRC’s host-based intrusion detection
system is not monitoring 34 percent of IRS
servers, which puts the IRS network and data at
risk. In addition, the CSIRC is not reporting all
computer security incidents to the Department of
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 12, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Computer Security Incident Response Center
                             Is Effectively Performing Most of Its Responsibilities, but Further
                             Improvements Are Needed (Audit # 201120012)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Computer
 Security Incident Response Center (CSIRC). The overall objective of this review was to
 evaluate the effectiveness of the CSIRC at preventing, detecting, reporting, and responding to
 computer security incidents targeting IRS computers and data. This audit was included in the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2011 Annual Audit Plan and
 was part of our statutory requirement to annually review the adequacy and security of IRS
 technology. This review addresses the major management challenge of Security for Taxpayer
 Data and Employees.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.
                    The Computer Security Incident Response Center Is Effectively
                   Performing Most of Its Responsibilities, but Further Improvements
                                             Are Needed




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Computer Security Incident Response Center Is
          Effectively Performing Most of Its Responsibilities and
          Has Sufficient Tools and Training to Accomplish Its Mission..................... Page 3
          The Computer Security Incident Response Center Does Not
          Administer and Monitor the Host-Based Intrusion Detection
          System for All Deployed Servers ................................................................. Page 5
                    Recommendation 1:.......................................................... Page 7

          The Computer Security Incident Response Center Is Not
          Reporting All Computer Security Incidents to the Department
          of the Treasury .............................................................................................. Page 8
                    Recommendations 2 and 3: .............................................. Page 10

          The Computer Security Incident Response Center Has
          Not Developed Adequate Policies, Plans, and Procedures ........................... Page 11
                    Recommendations 4 and 5: .............................................. Page 12

                    Recommendation 6:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Computer Security Incident Response Center
          Lifecycle for Managing Security Incidents................................................... Page 20
          Appendix V – Glossary of Terms ................................................................. Page 21
          Appendix VI – Management’s Response to the Draft Report ...................... Page 25
         The Computer Security Incident Response Center Is Effectively
        Performing Most of Its Responsibilities, but Further Improvements
                                  Are Needed




                         Abbreviations

CSIRC              Computer Security Incident Response Center
HIDS               Host-Based Intrusion Detection System
IRM                Internal Revenue Manual
IRS                Internal Revenue Service
MITS               Modernization and Information Technology Services
NIST               National Institute of Standards and Technology
TIGTA              Treasury Inspector General for Tax Administration
                 The Computer Security Incident Response Center Is Effectively
                Performing Most of Its Responsibilities, but Further Improvements
                                          Are Needed




                                          Background

Cybersecurity incidents are computer-related threats or attacks against an organization’s
computer systems.1 The Government Accountability Office testified2 to Congress that pervasive
and sustained cyberattacks continue to pose a potentially devastating threat to the systems and
operations of the Federal Government. Cyberthreats to Federal systems can come from a variety
of sources, including criminals and foreign Nations, as well as hackers and disgruntled
employees. These potential attackers have a variety of techniques at their disposal, which can
enhance the reach and impact of their actions. For example, cyberattackers do not need to be
physically close to the targets, their attacks can easily cross State and national borders, and
cyberattackers can easily preserve their anonymity.
The U.S. Department of Energy Inspector General recently reported that exploitation of
vulnerabilities could cause significant disruption to operations and increase the risk that sensitive
data could be changed or stolen.3 The Department of Energy also said that recovery from
cyberattacks can be very costly. For example, three recent cyberattacks at different locations cost the
Department of Energy over $2 million. In another example, a senior Department of Defense
official reported that 24,000 electronic files were stolen in a cyberattack on the Pentagon in
March 2011. The official said that the cyberexploitation perpetrated against the defense
industry cuts across a wide swath of crucial military hardware, ranging from missile tracking
systems to satellite navigation devices, and that any theft of design data or engineering
information undermines the technological edge we hold over our potential adversaries.
Many cyberattacks can be traced back to the discovery of new security vulnerabilities identified
by security researchers or vendors. Attackers will subsequently engineer exploit code and then
launch that code against targets of interest. As a result, any significant delays in finding or fixing
software with critical vulnerabilities provide ample opportunity for attackers to break through,
gaining control over the vulnerable machines and getting access to the sensitive data they
contain.
To combat cyberthreats to its computer systems as well as computer-related security incidents
such as loss or theft of laptop computers and employees’ improper use of computers, the Internal
Revenue Service (IRS) established the Computer Security Incident Response Center (CSIRC) in
the Modernization and Information Technology Services (MITS) organization in February 2001.


1
  See Appendix V for a Glossary of Terms.
2
  Government Accountability Office, GAO-10-834T, Continued Attention Is Needed to Protect Federal Information
Systems From Evolving Threats p. 1 (June 16, 2010).
3
  U.S. Department of Energy, DOE/IG-0856, The Department’s Unclassified Cyber Security Program – 2011, p. 8
(Oct. 2011).
                                                                                                      Page 1
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



The CSIRC’s mission is to ensure the IRS has a team of capable “first responders” who are
organized, trained, and equipped to identify and eradicate cyberthreats. One of the primary
duties of the CSIRC is to perform 24-hour monitoring and support to IRS operations, seven days
a week, 365 days a year.
Similar to what the Government Accountability Office found, the IRS has experienced an
increase in the number of computer security incidents and
threats. In Calendar Year 2010, the IRS detected
2,768 computer security incidents and threats, which             The IRS detected over
represent a 22 percent increase over each of the past           2,700 computer security
                                                                    incidents during
two years. The incidents and threats increase the risks to IRS    Calendar Year 2010.
operations, the administration of our Nation’s tax system, and
the privacy of taxpayers’ sensitive information.
The CSIRC’s 31 employees and 23 contractors are divided among three groups.
      Operations – This group monitors the network and reports security incidents. It also
       sends security notifications to the IRS business units and system owners.
      Technical Team – This group deploys, operates, and maintains the security tools and
       applications required to support the cyberincident response capabilities.
      Emerging Threats – This group helps plan for and respond to emerging threats and
       computer security incidents targeting information technology assets. It also identifies
       cyberthreats based on geographic region, country, group, and individual.
The CSIRC must also rely on employees in other MITS functions to perform critical security
prevention and detection activities for the IRS. For example, the CSIRC must rely on the
Enterprise Operations function to install host-based intrusion detection system (HIDS) software
on servers so that the CSIRC may properly monitor all servers on the network. The Enterprise
Operations function is also responsible for installing security patches on servers, which protect
servers from the most up-to-date cyberthreats.
This review was performed at the offices of the MITS organization and its CSIRC in
New Carrollton, Maryland. We performed the review during the period March through
September 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.



                                                                                           Page 2
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed




                                 Results of Review

The Computer Security Incident Response Center Is Effectively
Performing Most of Its Responsibilities and Has Sufficient Tools and
Training to Accomplish Its Mission
The IRS has assigned most of the computer security incident-related services recommended by
the National Institute for Standards and Technology (NIST) and the Carnegie Mellon Software
Engineering Institute to the CSIRC. Other IRS functions are assigned some of the recommended
services and responsibilities, which is common in large organizations according to the Carnegie
Mellon Institute. For example, the Security Risk Management function in the MITS
Cybersecurity office is responsible for conducting network scans that identify all missing
security patches. The Security Control Testing and Evaluation group in this function conducts
network vulnerability scanning at the operating system level, database scanning, and web
scanning. We focused our review on the responsibilities performed by the CSIRC. These
responsibilities fit into four overall categories. See Appendix IV for a chart of all functions and
responsibilities assigned to the CSIRC.
      Detection – includes monitoring the network and the HIDS.
      Response – includes performing forensic analysis of security incidents and security event
       triage.
      Reporting – includes performing trending and analysis and reporting security incidents
       and events to IRS executives and the Department of the Treasury CSIRC (hereafter
       referred to as the Treasury CSIRC).
      Prevention – includes outreach and awareness activities to IRS business units and issuing
       security notifications.
Detection Responsibilities – The CSIRC is effectively performing its responsibilities to detect
computer security incidents. For example, the CSIRC reviews and approves firewall change
requests in accordance with IRS procedures. The CSIRC also maintains a Network-Based
Intrusion Detection System that includes 27 sensors stationed throughout the IRS. Multiple
sensors are placed in the IRS’s three computing centers, and at least one server is located at each
of the IRS’s 10 campuses. CSIRC management has recognized the need for further expansion
and plans to add additional sensors on the network, which will increase monitoring capability at
the current sites, and expand coverage to additional office locations. The CSIRC also effectively
reviews the Internet usage log files to identify violations of the IRS’s Internet Usage Policy and
appropriately notifies the Treasury Inspector General for Tax Administration (TIGTA) Office of

                                                                                            Page 3
                 The Computer Security Incident Response Center Is Effectively
                Performing Most of Its Responsibilities, but Further Improvements
                                          Are Needed



Investigations or IRS Labor Relations when necessary. Lastly, CSIRC analysts block any
malicious or inappropriate websites upon discovery.
Response Responsibilities – The CSIRC also effectively responds to computer security
incidents. When addressing incidents, CSIRC employees adhere to the Department of the
Treasury incident handling guidelines,4 which outline procedures for incident preparation,
identification, containment, eradication, recovery, and follow-up. For example, when a laptop is
lost or stolen, CSIRC analysts disable the employee’s grid card and ensure the employee changes
his or her password. The analysts use a checklist that enumerates everything that must be
completed when addressing this type of incident. Further, the CSIRC conducts post-mortems for
significant events and develops corrective actions for lessons learned. For example, during the
CSIRC’s response to the Conficker worm, the IRS had to remove thousands of computers from
the network to contain the virus. The CSIRC recognized that the IRS helpdesk personnel needed
assistance getting computers back online. To streamline this process, CSIRC analysts created a
Probe and Response Guide to assist the helpdesk personnel with containing any contamination
caused by the virus and restoring computers to the network. The CSIRC has implemented most
of the corrective actions identified through its formal lessons-learned process, and those that
remain outstanding require more complicated fixes that are still in progress, involving multiple
organizations outside the CSIRC.
Prevention Responsibilities – The CSIRC effectively performs its prevention responsibilities.
For example, the CSIRC timely notifies MITS’s Enterprise Operations and Security Risk
Management functions when software patch notifications are received from vendors.
Furthermore, the CSIRC has effective controls in place to ensure that security alerts, bulletins,
and advisories are issued timely in order to help prevent computer security incidents. The
CSIRC also performs outreach and awareness to IRS business units, with a presentation entitled
The Cyber Threat. This awareness presentation includes common misconceptions about
cyberthreats, the cost of inadequate security, key vulnerabilities, and the kinds of cyberthreats
targeting the IRS. Lastly, the CSIRC coordinates with other MITS functions in the preparation
and posting of informational security articles on the IRS’s Intranet to ensure widespread
distribution.
Tools, Training, and Qualifications – The CSIRC also has sufficient tools and training to
accomplish its mission. The CSIRC budget has more than doubled in the last three fiscal years,
from $11.6 million in 2009 to $30.1 million in 2011. This increase in funds has allowed the
CSIRC to procure additional equipment and analytical software to monitor and protect the IRS
network. Equipment purchases alone increased from $32,927 in 2009 to $593,452 in 2010. The
training records of CSIRC employees and contractors indicate they are provided adequate
training to remain current in the rapidly changing field of cybersecurity. Training courses cover


4
 Department of the Treasury, Treasury Directive Policy 85-01, Department of the Treasury Incident Response
Guidelines and Procedures (Jan. 29, 2008).
                                                                                                        Page 4
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



topics such as security risk assessment and web security, software-specific certifications, and
operating system administration. These resources allow the CSIRC to accomplish the services
described above.
In addition to adequate tools and training, CSIRC employees and contractors have the required
qualifications for their positions including a combination of appropriate experience, education,
and specialized technical certifications to fulfill CSIRC roles. At the time of our review, CSIRC
staff consisted of 31 Federal employees and 23 contractors who run the CSIRC 24 hours a day
throughout the year, including weekends, at two different locations. CSIRC employees have
advanced information technology degrees or extensive experience in computer and network
security. Lastly, the IRS completed background checks for all CSIRC employees and
contractors.
Although the CSIRC is effectively performing most of its prevention, detection, and responding
responsibilities, we found some areas where improvements could be made to further protect the
IRS network and data.

The Computer Security Incident Response Center Does Not
Administer and Monitor the Host-Based Intrusion Detection System
for All Deployed Servers
The CSIRC is required to detect security incidents and attacks against the IRS network by
monitoring the HIDS software installed on servers. To accomplish this function, the CSIRC
relies on system administrators to follow IRS procedures that require them to install and maintain
HIDS software on all servers connected to the network. However, the CSIRC has not
established an automated internal control to identify servers that are connected to the IRS
network without the protection of a HIDS.
We found a significant number of servers deployed throughout the IRS that were operating
without a HIDS installed. System administrators working in the MITS organization, which
includes the Enterprise Operations, Enterprise Networks, and Applications Development
functions, maintain most of these servers. However, this weakness also exists in other major IRS
business units that maintain their own information technology infrastructure. Table 1 shows the
number and percentage of active servers deployed on the IRS network that were operating
without a functioning HIDS.




                                                                                           Page 5
                The Computer Security Incident Response Center Is Effectively
               Performing Most of Its Responsibilities, but Further Improvements
                                         Are Needed



                Table 1: Deployed IRS Servers Operating Without a HIDS

                                    Deployed Servers
                                      That Should            Deployed Servers
                                     Be Monitored               Operating               Percent Not
         Business Unit               by the CSIRC            Without a HIDS             Monitored
   MITS                                     6,799                    1,898                   28%
   Criminal Investigation                     766                      766                  100%
   Research, Analysis, and
                                              135                       58                   43%
   Statistics
   Chief Counsel                              434                       58                   13%
   Totals                                   8,136                    2,780                  34%
   Source: TIGTA reconciliation of the IRS server database inventory and the HIDS monitoring system.

Included in the MITS numbers above, we also found HIDS software was not installed or
functioning on 615 (29 percent) of the 2,147 servers that the IRS deployed in a virtualized
environment.
Criminal Investigation servers are not protected by the HIDS. CSIRC officials are currently
discussing with Criminal Investigation officials the possibility of allowing HIDS installation on
the Criminal Investigation servers. For other functions, IRS officials provided several reasons
why these servers were operating without the HIDS software.
      The servers were offline for maintenance on the day we conducted our test. However,
       the system administrators were unable to provide support for this explanation.
      The servers were retired, but the system administrators did not update the IRS asset
       management and inventory system. System administrators were also unable to provide
       support for this explanation.
      The servers were in “build” status and, therefore, were not required to have HIDS
       software installed. However, we found no HIDS exemption in IRS procedures for the
       “build” servers and believe these servers still pose risks if not monitored and protected
       while on the network.
      System administrators were unaware that the HIDS was not functioning on the servers.
      HIDS software was installed subsequent to our test or the HIDS is scheduled to be
       installed. CSIRC officials corroborated this last explanation by stating that after we
       forwarded identification data for the above servers to system administrators, the CSIRC’s


                                                                                                       Page 6
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



       HIDS technical team noticed a significant increase in the number of servers actively
       monitored by the HIDS monitoring system.
A lack of coordination between the CSIRC and system administrators contributed to the
significant number of servers operating without a HIDS. CSIRC officials told us their
responsibility is to monitor the HIDS, and system administrators are responsible for installing
and maintaining the HIDS. The CSIRC made no attempt to reconcile the active servers
connected to the network with the servers the HIDS technical team monitors. However, CSIRC
officials told us they are planning to enhance their Cybersecurity Data Warehouse to
systemically collect and correlate active server data with data from the HIDS monitoring system.
This enhancement would accomplish a reconciliation such as the one we performed and identify
servers operating without a HIDS. Without adequate monitoring of IRS servers, the CSIRC may
not timely detect malicious activity or cybersecurity incidents.

Recommendation
Recommendation 1: The Assistant Chief Information Officer, Cybersecurity, should direct
the CSIRC to:
   a) Develop its Cybersecurity Data Warehouse capability to correlate and reconcile active
      servers connected to the IRS network with servers monitored by the HIDS.
   b) Report servers that are repeatedly found operating without a HIDS to the applicable
      system administrators for corrective action.
       Management’s Response: The IRS agreed with this recommendation. To develop
       the recommended HIDS correlation, reconciliation, and reporting processes, the Assistant
       Chief Information Officer, Cybersecurity, will 1) identify impacted IRS organizations;
       2) identify applications and tools needed to provide information technology asset
       information, with their varying implementation dates, since the Cybersecurity Data
       Warehouse is not a repository of information technology asset information; and 3) initiate
       a stakeholder meeting to launch actions. The IRS will complete these actions by the end
       of Calendar Year 2012.
       Office of Audit Comment: The IRS’s proposed corrective actions do not address our
       recommendation. Specifically, the IRS did not include a commitment to implement the
       controls we recommended. After we issued the draft report, CSIRC officials informed us
       they intend to implement the controls but their dependence on another MITS function to
       develop an asset management system prevented the CSIRC from estimating an
       implementation date before the end of the calendar year. Without a control to identify
       and resolve servers operating without a HIDS, the IRS cannot monitor for malicious
       activity or cybersecurity incidents across its server environment.


                                                                                          Page 7
                    The Computer Security Incident Response Center Is Effectively
                   Performing Most of Its Responsibilities, but Further Improvements
                                             Are Needed



The Computer Security Incident Response Center Is Not Reporting All
Computer Security Incidents to the Department of the Treasury
The Department of the Treasury requires5 the CSIRC to report the computer security incidents
and events to the Treasury CSIRC for its analysis. Table 2 presents the incident category type
and name, a description of the category, and the required reporting time period.
                  Table 2: Computer Security Incident and Event Categories

                                                                                                  REPORTING
    CATEGORY               NAME                         DESCRIPTION                              TIME PERIOD

                                           An individual gains logical or physical access
                                           without permission to a Federal agency
                                                                                                Within one hour of
        CAT 1           Unauthorized       network, system, application, data, or other
                                                                                                discovery/detection.
                       Access/Physical     resource, including the physical loss of assets
                            Loss           and Personally Identifiable Information.

                                           An attack that successfully prevents or impairs
                                                                                                Within two hours of
                                           the normal authorized functionality of
                                                                                                discovery/detection
                                           networks, systems, or applications by
        CAT 2          Denial of Service                                                        regardless of the
                                           exhausting resources. This activity includes
                                                                                                mitigation status of the
                                           being the victim or participating in the denial of
                                                                                                attack.
                                           service.

                                           Successful installation of malicious software        Within one hour of
                                           (e.g., virus, worm, spyware, bots, Trojan horse,     discovery/detection if
        CAT 3          Malicious Code      or other code-based malicious entity) that is not    widespread across
                                           quarantined and infects or affects an operating      agency; otherwise,
                                           system or application.                               within 24 hours.

                                                                                                Within one week of
                                           A person violates acceptable computing use
        CAT 4          Improper Usage                                                           discovery/detection of
                                           policies.
                                                                                                the incident.

                                           Activity that seeks to access or identify a
                        Scans/Probes                                                       Monthly or as activity
        CAT 5                              Federal agency computer, open ports, protocols,
                      Attempted Access                                                     is discovered.
                                           service, or any combination for later exploit.

                                           Unconfirmed incidents under investigation that
        CAT 6            Investigation     are potentially malicious or anomalous activity      No set time period.
                                           deemed to warrant further review.
Source: Department of the Treasury Incident Reporting Guidelines and Procedures, Final Draft (May 15, 2011).




5
    Treasury Directive TD P 85-01 Appendix G p. 13 (Jan. 29, 2008).
                                                                                                               Page 8
                  The Computer Security Incident Response Center Is Effectively
                 Performing Most of Its Responsibilities, but Further Improvements
                                           Are Needed



The CSIRC effectively reports the above security incidents and events when it is aware of them.
However, in Calendar Year 2010, the TIGTA Office of Investigations detected 84 computer
security incidents that were never forwarded to the CSIRC for reporting to the Treasury CSIRC.
Sixty-five of these incidents were Internet and e-mail abuses (Category 4), 14 were misuse of
Government computers or software violations not involving the Internet or e-mail (Category 4),
and five were intrusion or sabotage incidents (Category 5).6 Since the CSIRC was not aware of
these incidents, it could neither investigate nor report them to the Treasury CSIRC.
We reported this same weakness in 20097 and noted the TIGTA Office of Investigations was
sharing only the incidents categorized as Loss or Theft of Information Technology Assets, which
omitted several reportable incident categories. At that time, we recommended the CSIRC
collaborate with the TIGTA Office of Investigations to revise the Memorandum of
Understanding between the two organizations.
Since we first reported this weakness, the CSIRC granted the TIGTA Office of Investigations
full access to the CSIRC incident tracking system. However, the TIGTA Office of Investigations
could not reciprocate due to its need to protect the confidentiality of sensitive investigative
information in its own security incident tracking system. Therefore, the CSIRC still had a
critical need to update the Memorandum of Understanding to define security incident referral
criteria and ensure the TIGTA Office of Investigations is sharing all computer security incidents
it detects during its ongoing IRS investigations and monitoring programs. However, the CSIRC
did not coordinate with the TIGTA Office of Investigations to define and expand the referral
criteria in the Memorandum of Understanding.
The Memorandum of Understanding was not updated because the CSIRC deferred this task to
the Office of Privacy, Information Protection, and Data Security. However, that office stopped
revising the Memorandum after determining its own incident tracking system, currently under
development, would satisfy its needs. After the Office of Privacy, Information Protection, and
Data Security determined it had no need for a revision to the Memorandum, CSIRC officials did
not resume their work to revise the Memorandum.
In addition to not revising the Memorandum of Understanding to improve security incident
sharing, an ineffective control in the CSIRC contributed to the CSIRC not reporting all incidents
to the Treasury CSIRC. The CSIRC did not always reconcile its incident tracking system with
the TIGTA Office of Investigations’ tracking system to ensure the lone category of incidents that
was shared, Loss or Theft of Information Technology Asset, was accounted for in the CSIRC’s
incident tracking system and reported to the Treasury CSIRC. Our reconciliation between the
TIGTA Office of Investigations’ system and the CSIRC’s incident tracking system determined


6
  At the end of our fieldwork, CSIRC officials told us they are no longer required to report Category 5 incidents to
the Treasury CSIRC.
7
  TIGTA, Ref. No. 2009-20-120, Significant Improvements Have Been Made to Protect Sensitive Data on Laptop
Computers and Other Portable Electronic Media Devices (Aug. 2009).
                                                                                                              Page 9
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



the CSIRC did not account for 37 (12 percent) of 320 Loss or Theft of Information Technology
Asset incidents that the TIGTA Office of Investigations maintained in its tracking system.
In response to our August 2009 report, CSIRC officials stated they were considering two
corrective actions to improve their reconciliation process. One improvement was to develop
common identifiers to help reconcile the CSIRC’s incident tracking system with the TIGTA
Office of Investigations’ system. The second improvement was to designate the CSIRC as the
central point of contact in order to reduce employee burden for making three separate contacts
(manager, TIGTA Office of Investigations, and CSIRC) when a loss or theft incident occurs.
However, the CSIRC did not implement either of these corrective actions that would have
improved the reconciliation process.
Without an effective reconciliation process, the CSIRC does not have reasonable assurance it is
fully meeting the Department of the Treasury’s incident reporting requirements. In addition, the
CSIRC’s timely response to Loss or Theft of Information Technology Asset incidents is critical
to prevent further loss of data and damage to IRS systems. Specifically, the CSIRC must
determine whether the device contained Personally Identifiable Information or other sensitive
data. In some cases, the CSIRC may need to remove the user’s remote access account to the IRS
network, disable network identification cards, or take other immediate action to protect the IRS
network and data.

Recommendations
The Assistant Chief Information Officer, Cybersecurity, should direct the CSIRC to:
Recommendation 2: Revise and expand the Memorandum of Understanding to require the
TIGTA Office of Investigations to refer all reportable and relevant computer security incidents to
the CSIRC except for those incidents that cannot be shared due to privacy or legal concerns.
       Management’s Response: The IRS agreed with this recommendation.
       Cybersecurity will revise and expand the Memorandum of Understanding to require the
       TIGTA Office of Investigations to refer all reportable and relevant computer security
       incidents to the CSIRC.
Recommendation 3: Collaborate with the TIGTA Office of Investigations to develop and use
common identifiers to facilitate the reconciliation of the CSIRC’s incident tracking system to the
TIGTA Office of Investigations’ tracking system.
       Management’s Response: The IRS agreed with this recommendation. Collaborative
       action is underway with the TIGTA Office of Investigations to develop and use common
       identifiers to facilitate reconciliation of CSIRC’s incident tracking system with the
       TIGTA Office of Investigations’ tracking system.



                                                                                          Page 10
                 The Computer Security Incident Response Center Is Effectively
                Performing Most of Its Responsibilities, but Further Improvements
                                          Are Needed



The Computer Security Incident Response Center Has Not Developed
Adequate Policies, Plans, and Procedures
The first step in establishing any program is the creation of policies and plans to implement these
policies. The Department of the Treasury Incident Response Guidelines and Procedures8 require
the IRS to implement the security requirements and controls outlined in the NIST Special
Publication 800-53,9 which provides the elements that should be included in a bureau’s incident
response policy and plan. Furthermore, the Department of the Treasury also requires agencies to
have “formal, documented procedures to facilitate the implementation of the incident response
policy and associated incident response controls.” The CSIRC, however, has not prioritized its
policies, plans, and procedures and has questioned whether following the NIST
recommendations to develop this guidance would improve security.

The Internal Revenue Manual lacks key incident response policy details
The CSIRC has not maintained and updated its incident response policy. CSIRC officials told us
that their incident response policy is included in the IRS’s Internal Revenue Manual (IRM) and
that the IRM provides adequate policy guidance. However, the IRM does not provide some of
the key policy details recommended by the NIST and therefore required by the Department of
the Treasury. The IRM lacks information about organizational structure and coordination among
organizational entities; delineation of roles, responsibilities, and levels of authority; and
compliance with the policy. The policy in the IRM is high level and does not contain detailed
information, such as performance measures recommended by the NIST to help organizations
improve their incident response capabilities.10 Furthermore, the IRM is out of date. For
example, the new Office of Privacy, Information Protection, and Data Security assists CSIRC in
reporting incidents involving Personally Identifiable Information to the Treasury CSIRC;
however, the IRM does not provide information about these critical responsibilities. The IRM
also states that the CSIRC has responsibility for conducting vulnerability assessments and
network scanning but, as stated previously, the Security Risk Management function now
performs these activities.
CSIRC officials told us their main priority is their mission to identify and eradicate cyberthreats
24 hours a day. However, we believe the IRS should follow the NIST recommendations, and
establishing and maintaining a current and complete incident response policy will provide the
program with clear direction and will assist the CSIRC with maturing its incident response
capability.



8
  Treasury Directive TD P 85-01 Appendix G p. 11 (Jan. 29, 2008).
9
  NIST Special Publication 800-53, Recommended Security Controls for Federal Information Systems and
Organizations, Revision 3, at pp. F-61 to F-65 (Aug. 2009).
10
   NIST Special Publication 800-61, Computer Security Incident Handling Guide pp. 2-3 to 2-4 (Mar. 2008).
                                                                                                       Page 11
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



Recommendation
Recommendation 4: The Assistant Chief Information Officer, Cybersecurity, should direct
the CSIRC to develop a standalone incident response policy or update the IRM for currency and
accuracy, including the NIST recommended elements that the Department of the Treasury policy
requires.
       Management’s Response: The IRS agreed with this recommendation. The
       Assistant Chief Information Officer, Cybersecurity, is updating IRM 10.8.1 to include
       NIST guidance and Department of the Treasury requirements, as deemed appropriate.

The CSIRC has not developed an incident response plan
The CSIRC also has not developed a standalone incident response plan as recommended by the
NIST and required by the Department of the Treasury. The NIST states,
       …it is important that organizations have a formal, focused, and coordinated approach to
       responding to incidents. To effectively implement such a capability, an organization
       should have an incident response plan. The plan should provide a high-level approach
       for how the incident response capability fits into the overall organization and should lay
       out the resources and management support that is needed to effectively maintain and
       mature an incident response capability.
The CSIRC said its plan is contained within its standard operating procedures, but we
determined the CSIRC’s standard operating procedures lack any coherence or organization
that would resemble an incident response plan and the standard operating procedures do not
satisfy the NIST recommended elements for a plan. For example, the standard operating
procedures do not describe the structure and organization of the incident response capability, nor
do they provide a description of how this capability fits into the overall organization. The NIST
also recommends that organizations review and approve their incident response plan. The
CSIRC standard operating procedures have received no such review.
As stated previously, the CSIRC has not prioritized planning. We believe the IRS should
comply with the Department of the Treasury requirement that bureaus implement the NIST
recommended elements for incident response plans.

Recommendation
Recommendation 5: The Assistant Chief Information Officer, Cybersecurity, should direct
the CSIRC to develop a standalone incident response plan that includes the elements
recommended by the NIST.




                                                                                          Page 12
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



       Management’s Response: The IRS agreed with this recommendation. CSIRC
       actions are underway to update standard operating procedures and formalize an incident
       response plan to include NIST guidance, as appropriate.

Standard operating procedures are not formalized and are outdated and
incomplete
The CSIRC has not developed adequate standard operating procedures to guide its employees
and contractors. The standard operating procedures are not formalized, and are neither current
nor complete. The Department of the Treasury’s “Minimum Standard Parameters” require
standard operating procedures to be current and complete. The NIST also recommends standard
operating procedures be tested for accuracy once developed. The CSIRC has not tested its
standard operating procedures.
The CSIRC’s standard operating procedures include a hodgepodge of electronic files, as follows:
one basic incident response flow chart, 10 different templates that analysts may use to generate
tickets in the CSIRC’s tracking system, three sample e-mail formats, 29 screenshots of various
online guidance ranging from a list of IRS Internet Protocol addresses to firewall administrator
contacts, and one narrative standard operating procedure document. The sole narrative
document contains disorganized sections that have not been updated since 2008. We also
determined the single narrative document to be incomplete due to a lack of critical procedure
guidance, such as how to monitor, manage, and address intrusion detection system information.
Other examples of missing guidance in the standard operating procedures include: 1) a
procedure to explain how the CSIRC and the TIGTA Office of Investigations should work
together to reconcile the cyberincidents in their separate tracking systems, 2) a procedure
explaining how incidents must be referred to Labor Relations when Internet misuse is identified,
and 3) guidance regarding the roles and responsibilities of the CSIRC and other organizations
involved in maintaining the IRS network and data security.
CSIRC officials agreed with our assessment of their standard operating procedure
documentation. CSIRC managers and analysts said they use an internal Wiki-page format to
share information about threats and how to handle particular incidents. Operations analysts told
us they use the Wiki-pages daily and that the information is easy to access and therefore effective
for their purposes. However, the Wiki-pages do not satisfy the NIST recommendations and the
Department of the Treasury requirements for formal, documented standard operating procedures.
Any CSIRC employee or contractor can update the Wiki-pages. The procedural information on
these pages does not undergo formal managerial review, and it can be inadvertently or
maliciously deleted. Finally, the Wiki-pages are not always available to CSIRC analysts. When
the site goes down or is otherwise unavailable, CSIRC analysts need the capability to access
standard operating procedures so that they may continue to handle computer security incidents.
At the beginning of our audit work, CSIRC officials told us they recently hired a technical writer
to formalize the information on the Wiki-pages into standard operating procedure documents.

                                                                                           Page 13
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



As stated previously, planning and procedure documentation is not prioritized at the CSIRC.
Without current and complete standard operating procedures that accurately describe how to
handle computer security incidents, the CSIRC cannot be sure that employees and contractors
have adequate information to appropriately address computer threats in order to protect the IRS
network and data.

Recommendation
Recommendation 6: The Assistant Chief Information Officer, Cybersecurity, should direct
the CSIRC to develop, update, and formalize all critical standard operating procedures and, once
completed, test these procedures to ensure completeness and accuracy as recommended by the
NIST.
       Management’s Response: The IRS agreed with this recommendation. Action is
       underway to develop, update, and formalize standard operating procedures, including
       coordination across the MITS organization.




                                                                                         Page 14
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the IRS’s CSIRC at
preventing, detecting, reporting, and responding to computer security incidents targeting IRS
computers and data. To accomplish our objective, we:
I.     Determined whether the CSIRC has established policies, plans, and procedures as
       recommended by the NIST and required by the Department of the Treasury by evaluating
       the IRM, CSIRC policy statements, incident response plans, and standard operating
       procedures.
II.    Determined whether the incident response services recommended by the NIST and the
       Carnegie Mellon Institute are performed by the CSIRC or other IRS organizations. We
       reviewed lists and descriptions of recommended services and interviewed officials in the
       CSIRC, Enterprise Operations function, and Security Risk Management function to
       delineate roles and responsibilities in order to ensure all recommended services are
       performed by the IRS.
III.   Determined whether the CSIRC is effectively performing its responsibilities for
       preventing, detecting, reporting, and responding to computer security incidents.
       A. For preventing computer security incidents, we identified outreach programs the
          CSIRC performed during Fiscal Year 2010 and interviewed CSIRC officials to
          determine if the CSIRC performed any follow-up actions to evaluate the effectiveness
          of these programs. We also:
           1. Interviewed CSIRC officials to review the controls in place that ensure the CSIRC
              issues timely security alerts, bulletins, and advisories. We verified the CSIRC
              issued alerts and advisories timely to the appropriate IRS officials.
           2. Interviewed CSIRC officials to identify controls in place that ensure software
              patch notifications are distributed to the Enterprise Operations and Security Risk
              Management functions, and determined whether the CSIRC is distributing patches
              timely.
       B. For detecting computer security incidents, we determined whether the CSIRC has an
          accurate server inventory and interviewed CSIRC officials to determine whether the
          IRS has developed procedures for notifying the CSIRC of changes that would affect
          its ability to detect unauthorized access. We also:



                                                                                          Page 15
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



           1. Evaluated the effectiveness of the Internet usage logs and determined whether the
              CSIRC reported Internet misuse and improper software downloads to appropriate
              IRS or TIGTA offices.
           2. Evaluated the effectiveness of the intrusion detection system operations. We
              reviewed the adequacy of Network-based Intrusion Detection System devices
              deployed throughout the IRS network. To evaluate the effectiveness of HIDS
              operations, we compared the Enterprise Server Database inventory of active
              deployed servers to the list of servers with HIDS software functioning properly in
              order to determine how many servers were operating without HIDS.
       C. For reporting computer security incidents, we evaluated the trending and analysis
          performed by the CSIRC and determined whether the CSIRC is reporting all security
          attacks and incidents to the Treasury CSIRC. We also:
           1. Interviewed Office of Privacy, Information Protection, and Data Security, and
              TIGTA Office of Investigations officials to determine how computer security
              incidents are shared and tracked between organizations.
           2. Determined whether the CSIRC reconciles its incident tracking system with the
              TIGTA Office of Investigations’ incident tracking system to ensure all known
              incidents are accounted for and reported. To accomplish this, we used all TIGTA
              Office of Investigations computer security incident records in Calendar Year 2010
              and matched them against records in the CSIRC’s incident tracking system.
       D. For responding to computer security incidents, we determined the CSIRC’s process
          for handling incidents and determined whether the CSIRC conducted post-mortems,
          developed lessons learned, and performed recovery operations and other services.
          We interviewed CSIRC officials and operations analysts to determine whether they
          follow the Department of the Treasury incident handling guidelines. We also
          observed CSIRC operations analysts while they handled incidents and mitigated
          computer threats on site for three business days.
IV.    Determined whether a lack of resources, qualified staff, or training was affecting the
       CSIRC mission. We reviewed resumes, technical qualifications, and employment
       records for all CSIRC employees and contractors and verified background checks were
       conducted. We interviewed the MITS training coordinator about training received and
       reviewed training records for all CSIRC personnel. Finally, we reviewed the CSIRC’s
       budget for the past three fiscal years.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems

                                                                                        Page 16
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the NIST standards and related IRM
guidelines and the processes followed by the CSIRC to protect the IRS network and data. We
evaluated these controls by conducting interviews and meetings with management and staff,
observing operations analysts on site, and reviewing documentation such as standard operating
procedures.




                                                                                       Page 17
              The Computer Security Incident Response Center Is Effectively
             Performing Most of Its Responsibilities, but Further Improvements
                                       Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
W. Allen Gray, Audit Manager
Charles O. Ekunwe, Lead Auditor
George L. Franklin, Senior Auditor
Bret Hunter, Senior Auditor
Jena R. Whitley, Senior Audit Evaluator
Monique Queen, Information Technology Specialist




                                                                                     Page 18
              The Computer Security Incident Response Center Is Effectively
             Performing Most of Its Responsibilities, but Further Improvements
                                       Are Needed



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Chief Counsel CC
Chief, Criminal Investigation SE:CI
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Research, Analysis and Statistics RAS
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Statistics of Income RAS:S
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM
Deputy Inspector General for Investigations IG:I




                                                                             Page 19
                    The Computer Security Incident Response Center Is Effectively
                   Performing Most of Its Responsibilities, but Further Improvements
                                             Are Needed



                                                                                              Appendix IV

         Computer Security Incident Response Center
          Lifecycle for Managing Security Incidents



                         CSIRC Mission and Functions
        The Computer Security Incident Response Center provides proactive prevention, detection,
             and response to computer security incidents targeting the IRS’ enterprise IT assets


       Incident Tracking & Referral                                              Outreach & Awareness
       Business Impact Analysis                                                  Security Notification
       Trending & Analysis              Reporting       Prevention               Vulnerability Management
       Leadership View                                                            Support
       Cyber Daily                                                               Infrastructure Security Device
       Treasury CSIRC/GSOC                                                        Operations and Management
       US-CERT
       TIGTA
                                                   Incident
                                                 Management
                                                  Lifecycle

       Event Triage                                                              Infrastructure Security
       Mitigation/Remediation                                                    Firewall Logs
       Forensic Analysis                                                         Network- and host-based
       Recovery                         Response        Detection                 Intrusion Detection
       Follow-up                                                                 Internet Misuse Monitoring
       Lessons Learned                                                           Antivirus


                                                                 Internal Revenue Service
                                                                Information Technology                    2
     Official Use Only

 Source: IRS CSIRC Overview and Status Presentation (September 2010), slide 2. GSOC is the acronym for
Government Security Operations Center, IT is the acronym for Information Technology, and US-CERT is the
acronym for United States Computer Emergency Readiness Team.




                                                                                                         Page 20
                The Computer Security Incident Response Center Is Effectively
               Performing Most of Its Responsibilities, but Further Improvements
                                         Are Needed



                                                                              Appendix V

                            Glossary of Terms

            Term                                        Definition
Campus                        The data processing arm of the IRS. The campuses process
                              paper and electronic submissions, correct errors, and forward
                              data to the Computing Centers for analysis and posting to
                              taxpayer accounts.
Carnegie Mellon Software      A Federally funded research and development center operated
Engineering Institute         by Carnegie Mellon University and sponsored by the
                              Department of Defense.
Conficker Worm                A computer worm targeting operating systems that was first
                              detected in October 2008. It used flaws in software to
                              propagate and was unusually difficult to counter because of its
                              combined use of many advanced malware techniques.
Cyber                         Cyber is often used for “electronic” or “computer-related.”
Exploit Code                  A piece of software or sequence of commands that takes
                              advantage of a bug, glitch, or vulnerability in order to cause
                              unintended behavior on computer software or hardware.
                              Exploit code frequently includes such things as gaining
                              control of a computer system or allowing privilege escalation
                              or a denial-of-service attack.
Grid Card                     One component of the IRS’s two-factor authentication process
                              to validate remote users on the network.
Host-Based Intrusion          A host-based intrusion detection system is a type of intrusion
Detection System              detection system that monitors and analyzes the computing
                              system as well as (in some cases) the network packets on its
                              network interfaces.




                                                                                      Page 21
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



            Term                                        Definition
Incident                     An occurrence that actually or potentially jeopardizes the
                             confidentiality, integrity, or availability of an information
                             system or the information the system processes, stores, or
                             transmits or that constitutes a violation or imminent threat of
                             violation of security policies, security procedures, or
                             acceptable use policies.
Incident Handling            The mitigation of violations of security policies and
                             recommended practices.
Incident Response Plan       The documentation of a predetermined set of instructions or
                             procedures to detect, respond to, and limit consequences of
                             malicious cyberattacks against an organization’s information
                             system(s).
Information Security         The protection of information and information systems from
                             unauthorized access, use, disclosure, disruption, modification,
                             or destruction in order to provide confidentiality, integrity, and
                             availability.
Information Technology       Any equipment or interconnected system or subsystem of
                             equipment that is used in the automatic acquisition, storage,
                             manipulation, management, movement, control, display,
                             switching, interchange, transmission, or reception of data or
                             information by the executive agency. The term information
                             technology includes computers, ancillary equipment, software,
                             firmware and similar procedures, services (including support
                             services), and related resources.
Internet Protocol            The Internet Protocol is the principal communications protocol
                             used for relaying packets of information across the Internet.
                             Responsible for routing packets across network boundaries, it
                             is the primary protocol that establishes the Internet.
Intrusion Detection System   Provides an organization the ability to monitor activity on its
                             computer network and look for suspicious or unauthorized
                             actions from both external and internal threats.




                                                                                       Page 22
               The Computer Security Incident Response Center Is Effectively
              Performing Most of Its Responsibilities, but Further Improvements
                                        Are Needed



            Term                                             Definition
Malware                           Malicious code, software, or firmware intended to perform an
                                  unauthorized process that will have adverse impact on the
                                  confidentiality, integrity, or availability of an information
                                  system. A virus, worm, Trojan horse, or other code-based
                                  entity that infects a host. Spyware and some forms of adware
                                  are also examples of malicious code.
National Institute of Standards   The NIST, under the Department of Commerce, is responsible
and Technology                    for developing standards and guidelines for providing
                                  adequate information security for all Federal Government
                                  agency operations and assets.
Network-Based Intrusion           Devices that are appliance-based components residing on
Detection System                  specific network environments to monitor traffic originating
                                  from or destined for protected segments of the network.
Patch                             Software vendors issue patches to fix flaws that become
                                  apparent after their software has been released to the public.
Personally Identifiable           Personally Identifiable Information includes the personal
Information                       information of taxpayers, employees, contractors, and visitors
                                  to the IRS. Examples include: name, home address, Social
                                  Security Number, home telephone number, biometric data,
                                  and other numbers and information that alone or in
                                  combination with other data can identify an individual.
Risk                              The level of impact on agency operations (including mission,
                                  functions, image, or reputation), agency assets, or individuals
                                  that results from the operation of an information system given
                                  the potential impact of a threat and the likelihood of that threat
                                  occurring.
Server                            A physical computer dedicated to running one or more
                                  services as a host to serve the needs of users of other
                                  computers on the network.
System                            A discrete set of information resources organized for the
                                  collection, processing, maintenance, use, sharing,
                                  dissemination, or disposition of information. A system
                                  normally includes hardware, software, information, data,
                                  applications, communications, and people.


                                                                                            Page 23
                 The Computer Security Incident Response Center Is Effectively
                Performing Most of Its Responsibilities, but Further Improvements
                                          Are Needed



            Term                                         Definition
System Administrator           A person who manages the technical aspects of a system.
Threat                         Any circumstance or event with the potential to adversely
                               impact organizational operations (including mission,
                               functions, image, or reputation), organizational assets, or
                               individuals through an information system via unauthorized
                               access, destruction, disclosure, modification of information, or
                               denial of service. Also, the potential for a threat-source to
                               successfully exploit an information system vulnerability.
Virus                          A piece of programming code usually disguised as something
                               else that causes some unexpected and, for the victim, usually
                               undesirable event and which is often designed to automatically
                               spread to other computer users.
Vulnerability                  Weakness in an information system, system security
                               procedures, internal controls, or implementation that could be
                               exploited or triggered by a threat source.
Wiki-Page                      Website allowing creation and editing of any number of
                               interlinked web pages used collaboratively by multiple users.




                                                                                       Page 24
    The Computer Security Incident Response Center Is Effectively
   Performing Most of Its Responsibilities, but Further Improvements
                             Are Needed



                                                      Appendix VI

Management’s Response to the Draft Report




                                                             Page 25
 The Computer Security Incident Response Center Is Effectively
Performing Most of Its Responsibilities, but Further Improvements
                          Are Needed




                                                          Page 26
 The Computer Security Incident Response Center Is Effectively
Performing Most of Its Responsibilities, but Further Improvements
                          Are Needed




                                                          Page 27
 The Computer Security Incident Response Center Is Effectively
Performing Most of Its Responsibilities, but Further Improvements
                          Are Needed




                                                          Page 28
